HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Miami Jewish Home and Hospital, Miami, Florida, (A-04-96-01132)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Miami Jewish Home and Hospital, Miami, Florida," (A-04-96-01132)
February 28, 1997
Complete
Text of Report is available in PDF format (990 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1994 through December 31, 1995.
The Operation Restore Trust reviewers questioned $391,719 in charges reported for the 32 beneficiaries in our sample.
This amount comprises $312,363 related to physical, occupational, respiratory and speech therapy; $48,834 in unallowable
laboratory charges, and $30,385 for drugs and other supplies. Therefore, we are recommending an adjustment of the above
charges. In addition, we request that a focused review of occupational and respiratory therapies and the use of standing
orders for all therapies be conducted by the Fiscal Intermediary and State agency in order to recoup overpayments made
to this skilled nursing facility and to implement corrective action by the facility.